CHARLES S. LiMANDRI†*
PAUL M. JONNA†
JEFFREY M. TRISSELL†
B. DEAN WILSON
MILAN L. BRANDON II
NOEL J. MEZA III

POST OFFICE BOX 9120
RANCHO SANTA FE, CALIFORNIA 92067
TELEPHONE: (858) 759-9930
FACSIMILE: (858) 759-9938

PHYSICAL ADDRESS:
16236 SAN DIEGUITO ROAD
BUILDING 3, SUITE 3-15
RANCHO SANTA FE, CA 92091

WEBSITE: www.limandri.com
KATHY DENWORTH
Office Administrator

RICHARD SALPIETRA
BRIAN D. MILLER
GREGORY J. ANTHONY
Of Counsel
*BOARD CERTIFIED CIVIL TRIAL ADVOCATE
ADMITTED TO THE DISTRICT OF COLUMBIA BAR
ADMITTED TO THE NEW YORK BAR
†
ADMITTED TO THE U.S. SUPREME COURT

January 20, 2021
Hon. Scott R. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

South Bay United Pentecostal Church, et al. v. Newsom, et al., No. 20-746
Opposition to Request for Extension of Time

Dear Mr. Harris:
Petitioners South Bay United Pentecostal Church and Bishop Arthur Hodges III
(collectively “South Bay”) respectfully oppose California’s request to extend the deadline for
it to respond to South Bay’s petition for a writ of certiorari before judgment.
Following early litigation, including an application for injunctive relief submitted to this
Court, the Ninth Circuit ordered limited remand to the Southern District of California for it to
consider South Bay’s renewed motion for a preliminary injunction based on significant new
evidence. On October 15, 2020, the Southern District of California denied that motion. S. Bay
United Pentecostal Church v. Newsom, --- F. Supp. 3d ---, 2020 WL 6081733 (S.D. Cal.
2020). The Ninth Circuit then resumed jurisdiction, under Case No. 20-55533. Pending the
Ninth Circuit supplemental briefing, on November 24, 2020, South Bay filed the present
petition for a writ of certiorari before judgment with this Court.
Following this Court’s orders in Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S.
Ct. 63 (2020), and Harvest Rock Church v. Newsom, -- S. Ct. --, 2020 WL 7061630 (2020),

Hon. Scott S. Harris, Clerk
Re: South Bay United Pentecostal Church, et al. v. Newsom, et al., No. 20-746
Opposition to Request for Extension of Time
January 20, 2021
Page 2
____________________________

on December 8, 2020, the Ninth Circuit vacated the Southern District of California’s October
15, 2020 order, remanded the case (with the panel retaining jurisdiction over future appeals),
and instructed the District Court to reconsider its order denying preliminary injunctive relief.
S. Bay United Pentecostal Church v. Newsom, 981 F.3d 765 (9th Cir. 2020). Two days later,
on December 10, 2020, the first California Superior Court to grant preliminary injunctive
relief did so, enjoining both California and San Diego County (along with Los Angeles, San
Bernardino, and Kern counties) from restricting worship services, but based on the Free
Exercise clause of the California constitution, which the court interpreted as “at least as
protective of religious liberties as the First Amendment.” Burfitt v. Newsom, No. BCV-20102267 (Cal. Super. 2020). California and San Diego County simply ignored the order; but
on December 19, 2020, Los Angeles County lifted all restrictions on churches, stating in its
press release that doing so was necessary to “align” with Diocese of Brooklyn and Burfitt.
On December 21, 2020, the Southern District of California re-issued an order denying
preliminary injunctive relief in toto, and re-incorporating by reference its earlier October 15,
2020 order. S. Bay United Pentecostal Church v. Newsom, --- F. Supp. 3d ---, 2020 WL
7488974 (S.D. Cal. 2020). The Ninth Circuit them resumed jurisdiction, under Case No. 2056358, and South Bay filed an urgent motion for an injunction pending appeal.
On December 23 and 24, 2020, the Ninth Circuit denied South Bay’s motion for an
injunction pending appeal, without prejudice, but expedited South Bay’s appeal with oral
argument to be completed on Friday, January 15, 2021 because California’s restrictions on
worship “ ‘strike at the very heart of the First Amendment’s guarantee of religious liberty.’ ”
S. Bay United Pentecostal Church v. Newsom, 982 F.3d 1239 (9th Cir. 2020) (quoting
Diocese of Brooklyn, 141 S. Ct. at 68); S. Bay United Pentecostal Church v. Newsom, 983
F.3d 383 (9th Cir. 2020).
On December 30, 2020, instead of timely filing their response to South Bay’s petition
for a writ of certiorari before judgment, both California and San Diego County filed
statements indicating that they would not respond to the petition unless ordered to do so by
this Court. On January 14, 2021, this Court ordered them to do so by February 16, 2021. On
January 15, 2021, the Ninth Circuit heard oral argument, and took the appeal under
submission. A ruling is expected any day. But on January 19, 2021, California (but not yet
San Diego) requested that its response deadline be extended to March 18, 2021.
This Court should deny the requested extension. The Ninth Circuit took seriously that
all people of faith suffer irreparable harm as every “Sabbath passes,” Diocese of Brooklyn,

Hon. Scott S. Harris, Clerk
Re: South Bay United Pentecostal Church, et al. v. Newsom, et al., No. 20-746
Opposition to Request for Extension of Time
January 20, 2021
Page 3
____________________________

141 S. Ct. at 68, and thus expedited the appeal. S. Bay, 982 F.3d 1239. California, in contrast,
has thumbed its nose at this Court’s guidance, refusing to come into compliance, and even
ignoring court orders enjoining it. It beggars belief that the Attorney General of the largest
state of the nation, where under the present legal regime “Hollywood can film a simulated
indoor worship service, complete with singing, for a movie or TV show, but South Bay cannot
conduct a real service,” Appellants’ Opening Brief at 26, S. Bay United Pentecostal Church
v. Newsom, No. 20-56358 (Dec. 31, 2020) (9th Cir. Dkt. 20), cannot find an attorney to staff
this case and draft California’s response. Any further delay is a mockery of both this Court’s
and the U.S. Constitution’s authority.

Sincerely,
LiMANDRI & JONNA LLP

Charles S. LiMandri
CSL/jmt

